<html>
<title> - S. 2599, THE LEECH LAKE BAND OF OJIBWE RESERVATION RESTORATION ACT</title>
<body><pre>[Senate Hearing 115-327]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-327

   S. 2599, THE LEECH LAKE BAND OF OJIBWE RESERVATION RESTORATION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-530 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7512051a35160006011d1019055b161a185b">[email&#160;protected]</a> 


         


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MIKE CRAPO, Idaho                    TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 11, 2018....................................     1
Statement of Senator Cortez Masto................................    11
Statement of Senator Hoeven......................................     1
Statement of Senator Smith.......................................     2
Statement of Senator Udall.......................................     1

                               Witnesses

Jackson, Sr., Hon. Faron, Chairman, Leech Lake Band of Ojibwe....     4
    Prepared statement...........................................     5
Weldon, Leslie, Deputy Chief, National Forest System, U.S. Forest 
  Service, U.S. Department of Agriculture........................     3
    Prepared statement...........................................     4

                                Appendix

Response to written questions submitted by Hon. Tom Udall to Hon. 
  Faron Jackson, Sr..............................................    13
U.S. Department of the Interior, prepared statement..............    13

 
   S. 2599, THE LEECH LAKE BAND OF OJIBWE RESERVATION RESTORATION ACT

                              ----------                              


                        WEDNESDAY, JULY 11, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:58 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon.
    We will call this hearing to order.
    Today, the Committee will receive testimony on one bill. 
That is S. 2599, the Leech Lake Band of Ojibwe Reservation 
Restoration Act.
    On March 22, 2018, Senator Smith introduced S. 2599, the 
Leech Lake Band of Ojibwe Reservation Restoration Act. If 
enacted, this bill would transfer approximately 11,760 acres of 
Federal land from the U.S. Department of Agriculture to the 
U.S. Department of the Interior for the benefit of the Leech 
Lake Band of Ojibwe.
    At this time, I would like to turn to the Vice Chairman, 
Senator Udall, to offer any opening statement he may have.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for calling 
today's legislative hearing.
    The bill before us today addresses an issue of great 
importance to Indian Country, restoration of tribal homelands.
    Senator Smith's bill, S. 2599, would return over 11,000 
acres of tribal homeland to the Leech Lake Band of Ojibwe. For 
nearly a decade, beginning in the late 1940's, the BIA 
improperly authorized the sale of tribal member allotments 
without their consent.
    These ``Secretarial Transfers'' resulted in thousands of 
acres being sold to the Forest Service and transferred to the 
Chippewa National Forest. With this legislation, Congress has 
the opportunity to right a historic wrong by returning 
stewardship of these lands to the people most capable, the 
Leech Lake Band of Ojibwe.
    Thank you again, Mr. Chairman, for calling this hearing. I 
look forward to today's testimony.
    The Chairman. We will now hear from our witnesses. I will 
turn to Senator Smith in a moment for purposes of introduction.
    First, I would like to welcome Ms. Leslie Weldon, Deputy 
Chief for the National Forest System, U.S. Forest Service, U.S. 
Department of Agriculture, Washington, D.C. For our other 
honored guest today, I will turn to Senator Smith for the 
introduction.
    Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Chairman Hoeven, thank you so much for this 
hearing. Thank you very much Vice Chairman Udall for holding 
this hearing today on my bill, the Leech Lake Band of Ojibwe 
Reservation Restoration Act.
    This hearing represents an important step forward as we 
move this legislation forward. The Leech Lake Band of Ojibwe 
Reservation Restoration Act seeks to restore 11,760 acres of 
land to the tribe that was wrongfully taken from them.
    This bill comes after much negotiation and planning with 
both the tribe and the Forest Service. I would like to thank 
both Ms. Weldon and Chairman Jackson for being here today.
    I would like to take a moment to introduce Chairman Faron 
Jackson of the Leech Lake Band of Ojibwe who is here to testify 
in support of this bill that would increase the limited land 
base the tribe currently has.
    Also, out of friendship, I want to welcome you, Chairman 
Jackson, and also welcome your wife, Laurel, for being here. 
They had a lovely drive all the way down from Leech Lake to 
Washington, D.C., probably about a good two-day drive, to get 
here. Thank you for taking the time to be here.
    Chairman Jackson has served as the Leech Lake Band of 
Ojibwe's chairman since July 2016. As chairman, he has 
skillfully served the 11 communities comprising the Leech Lake 
Indian Reservation.
    During his tenure, he has worked to address the numerous 
challenges the Band faces and also capitalized on the many, 
many assets this Band has. He has worked hard on increasing and 
preserving Ojibwe culture, increasing safety on the reservation 
and also working hard on efforts to restore the Band's land, 
which is what brings us here today which is so important to the 
approximately 9,500 people that live on the reservation.
    Chairman Jackson, I want to thank you for traveling to be 
with us today. I look forward to hearing both of your 
testimonies.
    The Chairman. Thank you, Senator.
    I want to remind the witnesses that your full written 
testimony will be made a part of the official record. Please 
keep your statements to no more than five minutes so that we 
have time for questions.
    We look forward to hearing your testimony. We will proceed 
with Ms. Weldon.

   STATEMENT OF LESLIE WELDON, DEPUTY CHIEF, NATIONAL FOREST 
  SYSTEM, U.S. FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Weldon. Thank you, Mr. Chairman, Vice Chairman and 
members of the Committee for inviting me to share the views of 
the U.S. Department of Agriculture on the Leech Lake Band of 
Ojibwe Reservation Restoration Act.
    The Administration has some concerns with the bill and we 
are committed to working with the Committee and the Leech Lake 
Band to find solutions.
    The Forest Service takes our responsibilities to the Leech 
Lake Band very seriously. In 2016, we began working with the 
Leech Lake Band on issues specific to the Chippewa National 
Forest and worked well together to address those issues for the 
benefit of the Ojibwe lifeways and the general public.
    Since that time, the Forest Service and the tribe have 
engaged in a series of consultations in order to work through 
their specific management priorities.
    I want to share my appreciation to Chairman Jackson and 
Forest Supervisor Darla Lenz for their productive working 
relationship and the outcomes we are beginning to see from that 
relationship.
    I want to emphasize that the uniqueness of the landscape 
and the relationship between the Forest Service and the Leech 
Lake Band of Ojibwe in service to the guaranteed treaty rights 
the Band has.
    The Forest Service and the Leech Lake Band officials have 
also met several times to discuss the issue of land transfer 
and to review the parcels that are a part of this. An initial 
review has been completed.
    In the course of that, we further identified the 
administrative issues we want to make sure we can work through 
well as we finalize this bill. Those include how the ownership 
will be fragmented, our ability to manage boundaries and also 
being able to look at and address the changes in access, 
recreational opportunities that may occur in some areas of the 
forest as well as the ongoing activities around our managing 
timber sale contracts and over 100 special uses also occurring 
on these parcels, including rights-of-way, utilities, railroads 
and cemeteries.
    We look forward to working with the Committee to address 
these issues and looking for those administrative solutions 
that will help us to do that.
    The USDA Forest Service is committed to supporting and 
respecting the sovereignty of tribal governments as well as 
supporting our rural communities. We look forward to continuing 
to work with this Committee to ensure the prosperity of the 
Leech Lake Band and providing the benefits and services from 
the Chippewa National Forest in a way that engages with our 
public and the Band and offering solutions that can work for 
all.
    I am happy to answer any questions you may have.
    [The prepared statement of Ms. Weldon follows:]

  Prepared Statement of Leslie Weldon, Deputy Chief, National Forest 
      System, U.S. Forest Service, U.S. Department of Agriculture
    Mr. Chairman, members of the Committee, thank you for inviting me 
to share the views of the United States Department of Agriculture on 
the Leech Lake Band of Ojibwe Reservation Restoration Act. The 
Administration has a number of concerns with this bill, but we are 
committed to working with the committee and the Leech Lake Band to find 
a working solution.
    The Forest Service takes our responsibilities to the Leech Lake 
Band very seriously. In 2016, we began working with the Leech Lake Band 
on issues specific to the Chippewa National Forest, and solutions to 
those issues for the benefit of the general public and Ojibwe lifeways. 
Since that time, the agency and the tribe have engaged in a series of 
consultations in order to work through their specific management 
priorities.
    The Forest Service and Leech Lake Band of Ojibwe officials have 
also met several times to discuss the issue of land transfer and review 
the parcel list. An initial review of the land parcels was completed 
and some parcels are no longer owned by the Forest Service. In the 
course of that review the Forest Service identified concerns that would 
arise if these lands were transferred.
    Fragmented ownership and boundaries resulting from the transfer 
could also lead to less access and fewer recreation opportunities on 
some areas of the national forest, impact planned and existing timber 
sale contracts, and affect more than 100 documented special use permits 
and rights of way for roads, utilities, railroads and cemeteries.
    We at the USDA Forest Service take seriously our mandate to support 
rural communities while respecting the sovereignty of tribal 
governments. We look forward to continuing to work with this committee 
to ensure the prosperity of the Leech Lake Band and all of the people 
who rely on the Chippewa National Forest.
    This concludes my testimony. I am happy to take your questions at 
this time.

    The Chairman. Thank you.
    Chairman Jackson.

STATEMENT OF HON. FARON JACKSON, SR., CHAIRMAN, LEECH LAKE BAND 
                           OF OJIBWE

    Mr. Jackson. Chairman Hoeven, Vice Chairman Udall and 
members of the Committee, Boozhoo and greetings.
    My name is Faron Jackson, Sr. I also want to acknowledge my 
Ojibwe name which is Ge Way Din. It means North Wind. It was 
given to me by my mother when my father passed away in 1998.
    I am proud to serve as the Chairman of the Leech Lake Band 
of Ojibwe. I want to thank you for providing me the opportunity 
to appear before you today and for taking the time to review 
this legislation.
    Further, Senator Smith, I want to thank you for introducing 
this important legislation and for working closely with Senator 
Klobuchar and your colleagues to advance it. You have been a 
true friend to the Leech Lake Band of Ojibwe and Indian Country 
as a whole.
    The passage of this legislation is extremely important to 
our tribe and will go a long way to restore our limited land 
base while preserving the land for future generations.
    To provide a brief background, the Leech Lake Band of 
Ojibwe is part of the Minnesota Chippewa Tribe, is comprised of 
over 9,500 members, and is headquartered in North Central 
Minnesota.
    We hold the smallest percentage of our reservation of any 
of the State's tribes. Of the 864,158 original acres, nearly 
300,000 acres are surface area of the three big lakes in our 
region. Further, the Chippewa National Forest holds over 75 
percent of the land within the boundaries of the reservation. 
This leaves less than 5 percent of land owned by the Leech Lake 
Band.
    As you know, the legislation before you would transfer 
11,760 acres of Chippewa National Forest land back to the Leech 
Lake Band of Ojibwe which was taken from owners of tribal 
allotments through a process called ``Secretarial Transfers.''
    Starting in the year 1948, the Bureau of Indian Affairs 
incorrectly interpreted a Department of Interior executive 
order and believed that they had the authority to sell these 
individual tribal allotments without getting the consent of the 
rightful owners.
    These sales ceased in 1955 following a memo that the Bureau 
of Indian Affairs received from the United States Field 
Solicitor that advised them that these sales were illegal.
    The Leech Lake Band of Ojibwe has no immediate intention of 
changing the use of these lands. We would honor all current 
agreements and anticipate that these lands would be held until 
we develop a broader plan that will allow for a gradual 
subdivision of some of the tracts for economic and residential 
development.
    The land will be open to the Native and non-Native members 
of the public to hunt, fish, explore, hike, bike and enjoy, as 
they do today.
    A robust land base is the foundation of tribal sovereignty 
and self-determination. Lands from the geographic reach of our 
jurisdiction supports our residing tribal populations. It is 
the basis of our tribal economy, and provides an irreplaceable 
forum for our cultural vitality, practices and traditions.
    Specifically, the lack of land has a direct impact on our 
ability to access adequate housing. This has been proven to 
jeopardize the health and safety of our tribal members and a 
remains one of the biggest issues within Indian Country today.
    For us, passage of this legislation and securing of 
additional land is one of the critical components needed to 
continue our work to increase housing options and will 
positively impact members of our tribe now and for generations 
to come.
    Once again, on behalf of the Leech Lake Band of Ojibwe, I 
want to say Chi-Miigwetch for the invitation to testify today. 
We know that there are many important matters which come before 
this Committee and we are honored that you would take the time 
to review this legislation.
    As you have heard, this legislation would go a long way to 
restore the Leech Lake Band of Ojibwe's limited land base, 
while at the same time, honor current agreements and preserve 
the land for future generations to come.
    I look forward to answering any questions you may have. 
Thank you.
    [The prepared statement of Mr. Jackson follows:]

  Prepared Statement of Hon. Faron Jackson, Sr., Chairman, Leech Lake 
                             Band of Ojibwe
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
Boozhoo and greetings. My name is Faron Jackson, Sr., and I am proud to 
serve as the Chairman of the Leech Lake Band of Ojibwe.
    I want to thank you for providing me the opportunity to appear 
before you today and for taking the time to review S. 2599, the Leech 
Lake Band of Ojibwe Reservation Restoration Act. Further, Senator 
Smith, I want to thank you for introducing this important legislation 
and for working closely with Senator Klobuchar and your colleagues to 
advance it. You have been a true friend to the Leech Lake Band of 
Ojibwe and Indian Country as a whole.
    The passage of this legislation is extremely important to our Tribe 
and will go a long way to restore our limited land base while 
preserving the land for future generations.
    To provide a brief background, the Leech Lake Band of Ojibwe is 
part of the Minnesota Chippewa Tribe, is comprised of over 9,500 
Members, and is headquartered in North Central Minnesota. The Leech 
Lake Tribe holds the smallest percentage of its reservation of any of 
the state's tribes.
    Of the 864,158 original acres, nearly 300,000 acres are surface 
area of the three big lakes in our region. Further, the Chippewa 
National Forest holds over seventy-five percent of the land within the 
boundaries of the reservation. This leaves less than 5 percent of land 
owned by the Leech Lake Band.
    As you know, the legislation before you would transfer 11,760 acres 
of Chippewa National Forest land back to the Leech Lake Band of Ojibwe 
which was taken from owners of tribal allotments through a process 
called ``Secretarial Transfers''.
    Starting in the year 1948, the Bureau of Indian Affairs incorrectly 
interpreted a Department of Interior executive order and believed that 
they had the authority to sell these individual tribal allotments 
without getting the consent of the rightful owners.
    These sales ceased in 1955 following a memo that the Bureau of 
Indian Affairs received from the United States Field Solicitor that 
advised them that these sales were illegal.
    Of the 17,000 acres of tribal lands that were taken through this 
process, the biggest share--11,760 acres--is located in Cass County, in 
and around the largest concentration of our tribal population as well 
as our Tribal Headquarters in Cass Lake.
    The Leech Lake Band of Ojibwe has no immediate intention of 
changing the use of these lands. We would honor current agreements, and 
anticipate that these lands would be held until we develop a broader 
plan that will allow for a gradual subdivision of some of the tracts 
for economic and residential development. The land will be open to the 
public to hunt, fish, explore, hike, bike and enjoy!
    We believe a significant tribal land base is the foundation of 
tribal sovereignty and self-determination. Federally recognized lands 
form the geographical limits of each tribe's jurisdiction, supports our 
residing tribal populations, is the basis of our tribal economy, and 
provides an irreplaceable forum for our cultural vitality, practices 
and traditions. Within the Leech Lake community the lack of land has a 
direct impact on our ability to access adequate housing. This has been 
proven to jeopardize the health and safety of our Tribal Members and a 
remains one of the biggest issues within Indian Country today.
    For us, the passage for this legislation and securing of additional 
land is one of the critical components needed to continue our work to 
increase housing options and will positively impact Members of our 
tribe now and for generations to come.
    Once again and on behalf of the Leech Lake Band of Ojibwe, Chi-
Miigwetch for the invitation to testify today. We know that there are 
many important matters which come before this Committee and are honored 
that you would take the time to review the Leech Lake Band of Ojibwe 
Reservation Restoration Act.
    As you have heard, this legislation would go a long way to restore 
the Leech Lake Band of Ojibwe's limited land base, while at the same 
time, honor current agreements and preserve the land for future 
generations.
    Thank you Mr. Chairman and Mr. Vice Chairman for holding this 
hearing, I look forward to answering any questions you may have.

    The Chairman. Thank you.
    We will begin with questions.
    The Chairman. Mr. Chairman, I will start with a question 
for you.
    The bill, S. 2599, states that ``a large portion of the 
Federal lands that are to be transferred to the Department of 
the Interior for benefit of the tribe is overlooked with 
utility easements, right-of-way for roads, and flowage and 
reservoir rights.''
    You mentioned the tribe already has a long range plan for 
economic and housing development on the land. My question is 
how will this land be developed for economic and residential 
opportunities while still recognizing the rights that exist on 
the land?
    Mr. Jackson. Chairman Hoeven, currently there aren't any 
developed buildings, housing or lodges on any of the land we 
are talking about today. These right-of-ways, utilities and 
easements are something that the tribe utilizes as well and 
they would be honored.
    The Chairman. I think that is important to understand. For 
example, the land transfer we just worked out with the Lytton 
Rancheria, they worked very hard with all stakeholders and I 
think they really did an admirable job to make sure that all 
stakeholders were treated fairly and well.
    The transfer was made for the benefit of the tribe but I 
think they were very careful in their planning and very 
inclusive.
    Obviously there are various interests with these utilities, 
easements and rights-of-way for roads, flowage and reservoir 
rights as well as, of course, the tribal interests. It is 
important that you work with everyone as you make this transfer 
to get them onboard. I guess that is the point I am making.
    Mr. Jackson. I understand that. As I said, we have no 
intentions of changing any of the dynamics there with the 
hunting and fishing rights we have. We hunt side by side with 
non-Natives on tribal lands, State forestry lands and that will 
continue to happen.
    The Chairman. As a matter of fact, I have hunted not on 
your lands but not too far away so I know it is good for deer 
hunting and other types of hunting as well, and fishing.
    Vice Chairman Udall.
    Senator Udall. Thank you very much, Chairman Hoeven.
    First, I would like to acknowledge two constituents of mine 
sitting in the crowd, Lacey Begay and John Cummings who are in 
Washington as part of the Native Leadership Program. I had the 
pleasure of meeting these two young advocates this morning. 
They are doing great work on behalf of Indian Country. I am 
pleased to see them here today. Welcome.
    Ms. Weldon, more than 300 tribes manage over 18 million 
acres of forest land. These lands border nearly 4,000 miles of 
Forest Service-managed lands which are at a heightened threat 
to wildfires.
    I know the Forest Service does excellent work to support 
fire mitigation and fire suppression activities but as you know 
very well, the Forest Service has faced an uphill battle when 
it comes to forestry work due to a dramatic increase in costly, 
more destructive and catastrophic wildfires.
    In 2004, Congress passed the Tribal Forest Protection Act 
to be another tool in the fire mitigation toolbox. The TFPA 
allows tribes to have greater control over their lands by 
helping the Forest Service with its work on adjacent Forest 
Service lands.
    TFPA is a great idea but I have heard mixed results. My 
question for you is does the Forest Service have sufficient 
personnel and capacity to work with tribes and assist in their 
TFPA endeavors?
    Ms. Weldon. Thank you, Vice Chairman.
    We are affirming with you that TFPA and the purposes behind 
it are really on track with the idea of sharing across 
landscapes and looking at ways to protect communities, lands 
and reduce the risk of wildfire.
    We have a number of examples where we are working 
effectively with the Tribal Forest Protection Act. We find that 
we do extremely well when we work closely with the tribes as we 
are developing proposals together and ensuring we are 
optimizing the priority landscape we are working with in that.
    As relates to our capacity, where we are making those 
commitments, we are able to follow through on those. As we 
become more efficient and effective in using this tool and also 
stewardship contracting to deliver that, we are seeing more of 
that occur.
    That includes a couple of examples happening with the Leech 
Lake Band as well as some other areas in the west.
    Senator Udall. Could you use more people to carry out these 
responsibilities?
    Ms. Weldon. Could we use more people?
    Senator Udall. Yes.
    Ms. Weldon. I think that is a correct answer for a lot of 
work we are trying to do, to increase the amount of outcomes on 
our landscapes overall.
    Senator Udall. Thank you.
    I have heard from some tribes in New Mexico about 
stewardship contracts. These contracts can be difficult and 
sometimes inflexible. Selecting a contract mechanism that fits 
best for both parties is very important, especially under a 
government-to-government relationship.
    One option is what is known as 638 contracts, a process 
which has been around since 1975. You are familiar with that. I 
see you are nodding there. The process is not perfect but 
tribes know the process well.
    The question really is do you think 638 contracting for 
forestry work under the Tribal Forest Protection Act is a 
viable option for tribes to protect their resources, 
considering that 638 contracting is a process that many tribes 
are comfortable and familiar with?
    Ms. Weldon. Thank you very much.
    As you know, the Forest Service and USDA do not have the 
ability to apply that. As we have talked with our colleagues 
and USDI, we are learning there are a lot of additional 
flexibilities.
    The ability for the management of our stewardship contracts 
or contracts to be shared more fully with the tribes being able 
to host those and work through a lot of the administrative 
details does facilitate our ability to get work done.
    I would see it as something that we would be very 
interested in exploring further.
    Senator Udall. I am glad you are willing to do that because 
tribes really understand that process well. I think it would 
further the relationship.
    Chairman Jackson, as you know, climate change can have 
dramatic impacts on everything from water, forests to wildlife, 
all of which do not follow land management boundaries. Whether 
federally-managed lands or tribally-managed lands, land 
management agencies and departments are on the front lines on 
climate change resiliency efforts.
    The lands tribes manage may often prove more resilient than 
Federal land because tribal lands are managed by the tribes who 
know the land the best. It is my understanding that you are 
working with the BIA on an integrated resource management plan 
to have better control over your natural resources.
    Can you please describe your tribe's experience with 
forestry management on the lands subject to this bill and your 
land in general?
    Mr. Jackson. You are right. We have had climate change and 
we are beginning to take steps to morph this plan into an 
integrated resource management plan to be more inclusive with 
regard to wildlife, water quality, culturally-significant 
plants and invasive species in deterrence.
    Our plan would focus on the ecological balance of the 
forests within the Leech Lake Reservation which will produce a 
more diverse forest and better reflect the pre-settlement 
forests that were.
    Additionally, the forests will be raised in resilient 
climate change through diversity and retaining species on 
suitable sites. We have our forest staff that works in our 
headquarters office in Walker come out to the communities to 
have discussions with the elders.
    They go out into the forests and have working relationships 
in the field with community elders about the plants, the water 
and what is happening in the forest. We have a really good 
working relationship with Cass County with our forest rangers, 
working side by side with our tribal forest department.
    They are out in the field and the woods and are constantly 
having good, productive, ongoing dialogue. We are really happy 
about that.
    We have a MOU with Cass County. As I said, we have a good 
working relationship with Cass County and the forestry. We feel 
well connected with the staff and look at the forest issues 
together.
    Senator Udall. [Presiding.] Chairman Jackson, I think the 
tribes, where I have seen them work on forestry issues, are 
very conscientious and diligent.
    I was wondering if you have thoughts in terms of the 
question I asked of Ms. Weldon on 638. You obviously have 
familiarity with 638. Do you think that is something that could 
work for your tribe or other tribes in terms of forestry?
    Mr. Jackson. Thank you for that question.
    I do not have all the information about the 638. I have 
been kind of on other issues just being on the council for two 
years. I can get back to you on that.
    Senator Udall. We will put that question in the record and 
you will have an opportunity to take a look at it.
    Senator Cortez Masto.
    Senator Cortez Masto. I will yield to Senator Smith since 
it is her bill and I will ask questions after that.
    Thank you.
    Senator Udall. Okay. Thank you.
    Senator Smith. Thank you, Vice Chairman Udall. Thank you, 
Senator Cortez Masto. I appreciate that.
    I would like to start with Ms. Weldon. I want to thank you 
so much for being here today. I have been so happy to work with 
the Forest Service in the drafting of this bill. I very much 
appreciate the assistance you provided and the working 
relationship we have had.
    I understand, as you have indicated, that there are still 
some issues and details we need to work out, particularly 
around permitting, rights-of-way on parcels and those kinds of 
issues.
    For example, I know there is some question about the timber 
contracts and those issues. I appreciate, Chairman Jackson, you 
making clear your intention to respect those previous 
commitments. I appreciate that very much.
    I also want to note that you brought up Cass County, 
Chairman Jackson, also a really important partner in this whole 
endeavor and the fact that the Leech Lake Band has a good 
relationship with Cass County which I think will very much 
help.
    Let me say, Ms. Weldon, you and I had a chance to visit 
right before we began. I appreciate your comments that you look 
forward to working on this so we can wrap up any last remaining 
details.
    I want to thank you for that and see if there is anything 
else you would like to add on that?
    Ms. Weldon. No. Thank you very much.
    We spent a lot of time visiting with the local leadership 
for the national forest there. There is good support for the 
intention behind the bill and really acknowledging the very 
unique landscaping relationship between the tribal lands and 
the national forest.
    I think there are some things we need to work out and maybe 
some novel ways of looking at how to do that into the future.
    Thank you.
    Senator Smith. I very much appreciate that. I look forward 
to continuing to work with you so we can get this figured out.
    Chairman Jackson, I know there have been lots and lots of 
consultations. Could you tell us a little bit about the kinds 
of ways you have been working on this with the Forest Service 
and maybe also with Cass County as we have been hammering out 
the details of this bill?
    Mr. Jackson. We have been working with Cass County in a lot 
of meetings. We attend some of their city and council meetings. 
We talk about how important the land is, not only for housing 
needs and economic development but also hunting needs.
    There is land within the reservation that is kind of being 
sold, is parceled off, and it is kind of right in the area 
where a lot of tribal and non-tribal members hunt. That is 
always a concern and our land base seems to continue to shrink 
with more posting of land.
    Every time you are out hunting in different seasons, there 
are always new lands surfacing. That is a big concern. It kind 
of ties in a bit with the housing needs I alluded to earlier. 
We have two families living in one household, sometimes three 
families residing in one household. It is also pertinent for 
housing development to have this land available.
    Senator Smith. Your work on this I think is really 
important. Access to affordable housing and the challenges of 
homelessness are issues throughout the country and throughout 
Minnesota. You are really dealing with it firsthand at Leech 
Lake.
    Thank you for your work on that. It is part of why this is 
so important, isn't that right?
    Mr. Jackson. That is correct, Senator.
    Senator Smith. I want to wrap up by saying I so appreciate 
you being here. I really look forward to working with both of 
you to get this figured out. It will be very important. I know 
how important it is for Leech Lake.
    I am glad to be finding a good solution to this, along with 
my colleague, Senator Klobuchar.
    Thank you.
    Senator Udall. Thank you.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Chairman Jackson, welcome and welcome to your wife. I am 
glad you made it safely. Ms. Weldon, welcome as well.
    I am supportive of the legislation and look forward to 
seeing what comes from the fruit of you getting together. It 
sounds like you are not far off. There is the ability to work 
together to transfer the land and really have some good 
legislation. I appreciate that and the comments you have had 
today.
    While I have you here, Ms. Weldon, I would like to talk 
about an issue happening in Nevada. The Forest Service is 
currently analyzing the impacts of making available for lease 
approximately 54,000 acres of National Forest lands in the Ruby 
Mountains in Elko County, making it available to oil and gas 
leasing.
    Such an oil and gas program would be managed by the BLM. As 
you know, the Forest Service is conducting this analysis 
because the Forest Service and the BLM received a leasing 
inquiry from a Wyoming-based developer.
    Due to the high public interest, I am told that the Forest 
Service extended the comment period through April 23, 2018. In 
fact, I submitted my own letter.
    You should know that this area of Nevada is particularly 
known as the Swiss Alps of Nevada. You can imagine how beloved 
and beautiful it is for everyone who lives there in northern 
Nevada. I understand there has been an overwhelming majority of 
people who have submitted comments that are opposed to the 
drilling.
    My question to you is specifically, do you know or can you 
give me a date of when the Forest Service will be releasing its 
final environmental assessment and decision of record for the 
potential use of Ruby Mountain or what is going to happen 
there?
    Ms. Weldon. Thank you, Senator.
    We do not have an exact date but we are in the timeframe 
where the final review is happening here in the national 
office. We expect that to happen very soon. We would like to 
check on the status of that final review process happening here 
in headquarters and be able to work with your staff to let you 
know exactly when.
    Senator Cortez Masto. Do you know if a determination has 
been made one way or the other by the Forest Service and it has 
just not been released?
    Ms. Weldon. I do not know but I will check into it and get 
back to you.
    Senator Cortez Masto. I look forward to talking with you 
further about that. Thank you.
    Ms. Weldon. Thank you.
    Senator Cortez Masto. Thank you very much.
    Mr. Chair, Ranking Member, I have no further questions.
    Senator Udall. Senator Smith, how about you, anymore 
questions?
    Senator Smith. No.
    Senator Udall. Thank you.
    Let me also recognize today that we apparently have the 
young people who came in the red shirts of the Bank of 
America's Youth Leadership Program. I understand this is a 
program to increase civic education. Senator Cortez Masto's 
staff says they are the best and brightest students from many 
States so I was trying to find out a bit about them.
    In terms of the civics, this is a hearing on a piece of 
legislation introduced by Senator Smith to give back land that 
was in the possession of the Forest Service that got there in 
an improper way. The name of the tribe is the Leech Lake Band 
of Ojibwe in Minnesota.
    Whenever we do anything that impacts the Forest Service and 
a tribe, we have a hearing. That is why we have a Forest 
Service witness and the chairman of the tribe here. We have had 
a full hearing.
    The next thing we do is mark up the bill at a later date 
and move it along in the legislative process.
    Thank you for being here and learning a little bit about 
the sausage-making as they call it.
    If there are no more questions for today, members may also 
submit follow-up, written questions for the record. The hearing 
record will be open for two weeks.
    I want to thank the witnesses for their time and testimony 
today.
    This hearing is adjourned.
    [Whereupon, at 3:20 p.m., the Committee was adjourned.]

                         A  P  P  E  N  D  I  X

       Prepared Statement of the U.S. Department of the Interior
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
thank you for the opportunity to present the Department of the 
Interior's (Department) views on S. 2599, the Leech Lake Band of Ojibwe 
Reservation Restoration Act, which directs the Secretary of Agriculture 
to transfer certain lands in the Chippewa National Forest to the 
Secretary of the Interior to be held in trust for the Leech Lake Band 
of Ojibwe in Minnesota.
    Administering trust lands is an important responsibility that the 
United States undertakes on behalf of Indian tribes. The Congress, 
through its plenary authority over Indian Affairs, can direct the 
Department to accept and administer lands to be held in trust as it 
does in S. 2599. The Department thus does not take issue with 
Congress's decision to pursue legislative proposals, such as S. 2599, 
for this purpose.
    S. 2599 directs the Secretary of Agriculture to transfer 
administrative jurisdiction to the Secretary of the Interior of 
approximately 11,760 acres of federal land to be placed in trust for 
the benefit of the Leech Lake Band of Ojibwe. Under S. 2599, the 
Secretary of the Interior's land into trust action shall be in 
accordance with the regulations of the Department applicable to trust 
land acquisitions for Indian tribes that are mandated by federal 
legislation.
    S. 2599 also includes several prohibitions, including that any 
federal law relating to the export of unprocessed logs harvested from 
federal lands shall apply to any such logs harvested from the lands 
defined in S. 2599; that the federal land defined in S. 2599 shall not 
be eligible or used for any gaming activity carried out under the 
Indian Gaming Regulatory Act; and that any commercial forestry activity 
carried out on the lands shall be managed in accordance with applicable 
federal law.
    This concludes my statement and I would be happy to answer 
questions.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                        Hon. Faron Jackson, Sr.
    Dear Chairman Hoeven and Vice Chairman Udall:
    I am writing on behalf of our Tribe to thank you for including S. 
2599, the Leech Lake Band of Ojibwe Reservation Restoration Act in the 
Senate Committee of Indian Affairs legislative hearing on July 11, 
2018. We appreciate the opportunity to testify before the Committee and 
share for the record why this land transfer is so critical to our 
tribe. We will continue to work closely with all stakeholders and would 
like to affirm our commitment to work with all parties as the 
legislative process proceeds. Thank you for your work to move forward 
this important legislation and please do not hesitate to contact me 
should you have any additional questions.
    As you have heard, S. 2599 would transfer 11,760 acres ofland that 
was taken from owners of tribal allotments and incorporated into the 
Chippewa National Forest back to the Leech Lake Band ofOjibwe (LLBO). 
The Chippewa National Forest acquired the land illegally through a 
process called Secretarial Transfers. I testified that the Bureau of 
Indian Affairs incorrectly interpreted a Department of Interior 
executive order and believed that they had the authority to sell these 
individual tribal allotments without getting the consent of the 
rightful owners. These sales ceased in 1955 following a memo that the 
Bureau of Indian Affairs received from the United States Field 
Solicitor that advised them that these sales were illegal.
    I want to reiterate that our Tribe stands ready to work with 
stakeholders and Congress as this process proceeds. Further, we have a 
very good working relationship with Cass County, Minnesota and the 
Chippewa National Forest where the lands in question are located. Our 
tribe will continue to work with all stakeholders to make sure that the 
public will have access to roads and utilities on the land, as well as 
access to recreation opportunities in the area. The land will be open 
to native and non-native members ofthe public to hunt, fish, explore, 
hike, bike and enjoy just as they are today. As I testified, our tribe 
will continue to work with the Committee and the U.S. Forest Service to 
solve any remaining technical issues. Our tribe has no immediate 
intention of changing the use of these lands and would honor all 
current agreements and timber contracts.
    I would also like to respond to Senator Udall's question regarding 
whether ``638'' contracting for forestry work under the Tribal Forest 
Protection Act (TFP A) as a viable option for tribes to protect their 
resources. As you know, the USDA does not yet have the ability to apply 
``638'' contracting, however, our tribe generally supports expanded 
``638'' authority when there is the capacity to do so as ``638'' would 
allow each tribe to determine how best to spend funds and administrate 
programs. ``638'' contracting would also allow for greater tribal 
participation in TFPA projects.
    In addition, with the onset of climate change, the Leech Lake 
Reservation has a Forest Management Plan (FMP) that has been in effect 
since 2002. Our tribe is beginning steps to morph this plan into an 
Integrated Resource Management Plan (IRMP). An IRMP will be much more 
inclusive with regard to wildlife, water quality, culturally 
significant plants, invasive species deterrence, etc. This plan will 
focus on ecological balancing of the forests within the Leech Lake 
Reservation; calling for some distancing from monoculture and some 
early successional species. This will result in a more diverse forest 
that will better reflect the pre-settlement forests that were. 
Additionally, these forests will be best poised to resist climate 
change through their diversity and retaining species on suitable sites.
    Again, acquiring this land is critical for our tribe as a 
significant tribal land base is the foundation of tribal sovereignty 
and self-determination. Federally recognized lands form the 
geographical limits of each tribe's jurisdiction, supports our residing 
tribal populations, is the basis of our tribal economy, and provides an 
irreplaceable forum for our cultural vitality, our religious beliefs, 
practices and traditions.
    Once again, and on behalf of the Leech Lake Band ofOjibwe, I would 
like to extend my sincerest appreciation for holding a legislative 
hearing on this bill. It will go a very long way to restore our limited 
land base. Thank you for your consideration of, and work to, advance 
this legislation. Please do not hesitate to contact me should you have 
any additional questions.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
